    October 1, 2002


 Testimony

                  Statement
                      of
             Joseph E. Schmitz
             Inspector General
                    of the
          Department of Defense
                    to the
    Subcommittee on National Security,
Veterans Affairs, and International Relations
  House Government Reform Committee
                      on
    Chemical and Biological Equipment:
     Preparing for the Toxic Battlefield

                 D-2003-006-T



               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
                                                                                    1




Mr. Chairman and Members of the Subcommittee:

Thank you for the opportunity to appear before your Committee today and address
your questions regarding the status of individual protective equipment intended to
protect our Armed Forces from chemical and biological attack. I share your
concerns with respect to the Department’s inventories, quality controls, and
serviceability of individual protective equipment. In our open session I want to
present our observations related to the need for an inventory management tool at
the unit level that contains the essential elements needed for chemical and
biological defense materiel, improvements in readiness reporting, training
challenges, and defective chemical and biological defense equipment that is still
being identified in the inventory. The best chemical and biological defense
materiels cannot protect the forces if they are not adequately maintained, stored, or
if the forces are not sufficiently trained in how to maintain and use the equipment.
Much has changed in the Department and the world since 1994 when we began
focusing on chemical and biological individual protective equipment.

The Department has a very comprehensive program to provide world-class
chemical and biological defense capabilities. These capabilities allow the Armed
Forces of the United States to survive and successfully complete their operational
missions across the spectrum of conflicts. The April 2002 Annual Report to
Congress on the Department’s Chemical and Biological Defense Program shows
the quality of the Department’s research, development, management, equipment,
and training initiatives. The overall program is an example of how the Department
can aggressively react to ensure that the military members are protected against
the growing challenges of chemical and biological attacks. The research and
development programs are extremely impressive and have enabled the Department
to develop some of the best individual protective equipment in the world.

The events of the past year have demonstrated that the threats facing the United
States and its Armed Forces can be diverse and asymmetrical as well as
conventional in nature. The United States has well-defined national security
interests in regions where known or suspected chemical and biological weapons
programs are conducted by countries of concern. For these reasons, our Armed
Forces must be prepared to execute their missions in all types of environments,
including those that are chemically and biologically contaminated. The
Department must maintain an active, viable chemical and biological defense
program for the protection of its forces. In his annual report to the President and
Congress, the Secretary stated that “the proliferation of NBC [Nuclear, Biological,
and Chemical] technology, materiel, and expertise has provided potential
adversaries with the means to challenge directly the safety and security of the
United States and its allies and friends.”
                                                                                      2




As the result of various reviews, my office has made efforts to address the
availability and serviceability of the chemical and biological defense materiel
issued to the Armed Forces. Since the last appearance before this Subcommittee
in June 2000, the Office of the Inspector General has continued its efforts to
ensure that the chemical and biological defense equipment issued to the Armed
Forces has been adequately maintained and stored, and that all personnel requiring
chemical and biological defense equipment have it and are properly trained to use
it. Two audits we have conducted address issues your invitation letter specifically
requested me to discuss. Because the results of the two audits are classified, I will
discuss them in closed session.

Units Visited

Since February 2000, we have visited 287 units in 31 states, 1 U.S. territory, and
9 countries under the command of 2 unified commands, 8 active duty Component
commands, 4 Reserve Component commands, and the Army and Air National
Guard to review their management of chemical and biological defense resources.
The results of our work is based on what we have seen in the military units most
likely to encounter a chemical and biological attack. The Services have each
undertaken several efforts to improve the oversight of chemical and biological
defense equipment. The problems that we identified in those unit visits can be
corrected; the issues are not insurmountable. Solving the problems will require a
concerted effort at all levels of command in each of the Services and the Office of
the Secretary of Defense. Some commands, such as the U.S. Naval Forces,
Central Command, have established vigorous programs to protect personnel from
chemical and biological weapons. Other organizations have less robust programs
that need to be improved. I will discuss those programs in greater detail later in
closed session.

Inventory Management

Limited visibility of chemical and biological defense items as assets remains a
problem at the installation or user level because of the lack of automated inventory
tracking systems at that level. Each of the Services maintains their own inventory
management tool. These tools are often augmented at the local installation level
with other tools, usually locally developed or procured, that provide a detailed
view of the stocks of chemical and biological defense equipment. The tools are
systems that should contain, at a minimum, information such as stock number,
size, contract number, lot number, date of manufacture, date of expiration, date of
inspection, the individual issued the item, and any service bulletins or recall
notices.

There should not be a need to develop inventory management tools at the
installation level. For example, one Navy activity reported to us that they spent
                                                                                    3




$15,000 to develop an Excel spreadsheet, while another Navy activity identified
an expenditure of roughly $100,000 to develop and field their chemical and
biological defense equipment inventory tool. Although these expenditures might
seem small on an individual basis, the fact that commanders identified a need to
develop their own tools should highlight the need for a Department-wide
standardized inventory tool.

The Department has worked to standardize other issues related to chemical and
biological defense, and it can do so here as well. For example, the Services are
moving to common masks, one for aircrew personnel and one for ground
personnel. This standardization will greatly enhance not only the protection of the
individual service members but also interoperability and joint warfighting.

This example demonstrates that when needed, the Department can work to unify
areas that benefit all, and standardizing an automated inventory management tool
would provide Department-wide benefits. This would not even require developing
a new inventory tool because some of the tools already in use could be adapted by
the other Services. For example, the Mobility Inventory and Control
Accountability System currently used throughout the Air Force provides a level of
detail that units in each of the Services have identified would aid them in
managing their inventories. This system is used to maintain control of inventory
and can be used to identify materiels on hand that have been flagged for inspection
because of service notices or product recalls, such as the one for defective
overgarments. The system also assists in managing on-hand stocks with an
identified shelf-life by tracking lot numbers or dates of manufacture.

The question then becomes one of, who should be the one to enforce
standardization? We believe that the Office of the Deputy Assistant to the
Secretary of Defense for Chemical and Biological Defense should provide the
oversight Department-wide and should be responsible for initiatives such as this.
We have recommended that the Deputy Assistant develop and field a DoD-
standardized inventory management system for all items of chemical and
biological defense. In response to our recommendation, the Deputy Assistant
agreed that the Services and the Defense Logistics Agency have numerous
inventory management systems with limited ability to share information. The
Deputy Assistant pointed out that DoD has established a single focal point for
gathering and disseminating data for the new Joint Service Lightweight Integrated
Suit Technology (JSLIST) ensembles and that the Defense Logistics Agency is
actively involved in replacing legacy systems with one that will interface with the
Services’ systems beginning in 2005.

We have conveyed to the Deputy Assistant that 2005 is too long to wait. A
standard inventory tool at the installation level for chemical and biological defense
equipment is needed now for the units to effectively manage their equipment.
                                                                                      4




Readiness Reporting

The Army can enhance the preparedness of our forces relative to chemical and
biological defense through an improved unit readiness reporting system. The
Army attempted to provide better information on chemical and biological defense
preparedness when they revised their readiness reporting instruction in November
2001, but additional improvements can still be made. As a result of our work with
the Army National Guard and Army Reserve, we recommended that the Army
revise their instruction for reporting readiness and include reporting of chemical
and biological defense materiels for all Army units. The Army agreed to our
recommendation. A unit’s chemical and biological defense readiness does not
affect its overall readiness rating because it is not a required factor in determining
that rating. As a result of our work overseas, we recommended that the Army
include the chemical and biological defense readiness of a unit in determining the
readiness rating of the unit. We are awaiting comments from the Army.
Mandatory inclusion of a unit's chemical and biological defense preparedness in
the calculation of a unit's readiness rating would provide commanders at all levels
with a more comprehensive level of their actual readiness.

Training

Improved reporting of chemical and biological defense readiness will aid in
creating a climate at all Army levels where training and equipping forces for
chemical and biological defense receive higher levels of attention and resources. I
will go into greater detail on the issues we identified in the units we visited in my
testimony for the closed session. For this session, I would like to state that each of
the Services has a comprehensive training program that they believe will prepare
their personnel to survive and operate in a chemically or biologically contaminated
environment. I believe that they have put in place the foundation on which
programs can be built that will provide for the protection and survivability of their
personnel. The Marine Corps and Air Force training were more robust than the
Army and Navy programs.

Each of the Services ensures that all personnel receive chemical and biological
defense training when they enter the Service. Any subsequent training is based on
the Service and the mission of the unit that the personnel are assigned to. The
Army has established a policy that allows the local commanders the flexibility to
determine their training frequency. Although this provides commanders with the
flexibility they require, the result is that some units had limited training or did not
train at all. For example, one Army National Guard Air Defense Artillery unit we
visited had limited training on chemical and biological defense equipment. When
an Army team assessed chemical and biological defense training for a unit of
86 personnel, the team only assessed 2 personnel and only on 1 of 6 chemical and
                                                                                     5




biological defense skills. This provides an incomplete picture of the readiness of
the unit to operate and survive in a contaminated environment. As a result of our
recommendations, the Army has agreed to enhance training for chemical and
biological defense.

We have also recommended that the Navy ensure compliance with its existing
guidance for chemical and biological defense training. In response, the Navy is
updating its Navy Technical Training Plan to contain a new chemical and
biological defense reporting field that includes chemical and biological defense
equipment and training standards. These are conditions that can be corrected by
having a directed, forward-leaning program that will provide for the protection of
all Service members.

Management Actions Taken

I would like to take this opportunity to update some of the actions that the
Department has undertaken since our last appearance before this Subcommittee in
June 2000. Improvements have occurred in many areas, yet areas of concern still
exist. One of the topics previously discussed at length before this Committee was
the presence of defective battle dress overgarments in the DoD inventory. As you
recall, these overgarments were manufactured by the Isratex Corporation and sold
to the Department even though they were defective. Another issue before this
Committee was the inaccuracy of inventory records for chemical suits. One of our
earlier audit reports identified the inaccuracy of inventory records for chemical
battle dress overgarments at the Defense Depot at Albany, Georgia. As of
October 12, 2000, the overgarments had been inventoried, the inventory records
corrected, and messages issued about the defective overgarments.

In October 2001 we requested the Defense Logistics Agency to provide an update
of their actions to locate the approximately 250,000 defective Isratex
overgarments that DoD could not account for. The Defense Logistics Agency
reported to us that they believed that the 250,000 unaccounted-for overgarments
were issued, worn, and disposed of. The Defense Logistics Agency also stated
that based on repeated messages and advisories, and through incentives to their
customers, the Defense Logistics Agency believed that any remaining
overgarments were identified and pulled out of serviceable inventories. The
Department has worked vigorously to identify and segregate the defective
overgarments; however, not all units have received this information from their
higher headquarters. Once segregated, the defective overgarments were to be used
solely for training. As recently as April 2002, we continued to identify units that
had not segregated those defective overgarments in their inventories. It is
important to note that when the defective overgarments are identified, the Services
and the Defense Logistics Agency have taken quick corrective action to remove
the defective items and to provide the units with serviceable replacements.
                                                                                   6




Summary

Standardizing and improving installation level logistics tools, readiness reporting,
and training are positive steps needed to help ensure that our Service members are
adequately prepared for the potential horrors of chemical and biological attacks.
Chemical and biological defense has been a primary focus of the Inspector
General of the Department of Defense audits over the past few years. Given the
importance of fully addressing the management challenges in this difficult area,
we have attempted to maintain continuous coverage despite severe resource
constraints and other requirements. Currently we are auditing the maintenance of
individual protective equipment in the U.S. Pacific Command, the security over
select biological agents, emergency preparedness of the Office of the Secretary of
Defense, and the management of decontamination resources.

Thank you for considering the views of the Office of the Inspector General on
these critical issues. This concludes my testimony.
